                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                     I
                                                 OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: A09060057                                                        11          Page 1 of1



           NSF OIG received an allegation regarding the PI's research integrity and management of
    an NSF award.' Specifically, the complainant was concerned about the poor quality of the
    research being conducted and the PI's mismanagement of the award.

             In working on the present A-case, we realized another A-case had already been opened to
     investigate this allegation. Material from this case file will be merged with that of the other case
     file. Accordingly, this A-case is closed.
